                        U.S. Environmental Protection Agency 	                                                   12-P-0836
                                                                                                         September 20, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review                    EPA Should Improve Management Practices
We sought to determine to what
                                          and Security Controls for Its Network Directory
extent the U.S. Environmental             Service System and Related Servers
Protection Agency (EPA)
implemented a management                   What We Found
control structure for its directory
service infrastructure. We also           The Office of Environmental information (OEI) is not managing key system
sought to determine what steps            management documentation, system administration functions, the granting
EPA took to identify and disable          and monitoring of privileged accounts, and the application of environmental
user accounts that are no longer          and physical security controls associated with its DSS. OEI is not keeping
needed.                                   management documentation associated with the DSS current and complete,
                                          and does not have an effective process for maintaining this documentation.
A directory service provides a            Further, OEI is not performing user account administration practices for the
centralized location to store             DSS, and does not have a management oversight process to ensure that the
information about the users,              regions and program offices are managing their delegated responsibilities in
computers, and other equipment on         accordance with Agency and federal requirements. The Office of
a network and provides integrated         Administration and Resources Management’s (OARM’s) Human Resources
services that are used to manage          and Contractor Management systems and processes are not linked to the
network users, services, and              user account management function. OEI is also not managing the delegation
devices. EPA uses a commercial            of DSS logging and monitoring processes. Lastly, OEI is not ensuring that
off-the-shelf product for its directory   environmental and physical security controls are applied to protect the
service system (DSS). EPA                 authentication and authorization servers.
implements this system using
multiple servers placed in various         Recommendations and Agency Corrective Actions
locations on its network to provide
enterprise-wide authentication and        We recommended that OEI and OARM management undertake a number of
authorization.                            corrective actions to improve its management of, and correct specific
                                          deficiencies associated with, the Agency’s DSS.
This report addresses the
following EPA Goal or                     OEI and OARM management concurred with all recommendations, other
Cross-Cutting Strategy:                   than two associated with environmental and physical security controls, and
                                          completed or agreed to take corrective actions to address the
 Strengthening EPA’s Workforce           recommendations with which they concurred.
  and Capabilities
                                          OEI indicated that the particular physical and environmental controls are not
                                          its responsibility. We disagree. The DSS Authentication and Authorization
                                          servers belong to OEI, and OEI is responsible for managing this equipment.
                                          Therefore, OEI needs to ensure that these controls are in place.

                                          Due to the sensitive nature of the report’s security findings, the full report is
                                          not available to the public.
For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.
